<html>
<title> - [H.A.S.C. No. 111-165]INTERAGENCY NATIONAL SECURITY REFORM: PRAGMATIC STEPS TOWARDS A MORE INTEGRATED FUTURE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-165]
 
 INTERAGENCY NATIONAL SECURITY REFORM: PRAGMATIC STEPS TOWARDS A MORE 
                           INTEGRATED FUTURE

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                              JUNE 9, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
57-702                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
SUSAN A. DAVIS, California           WALTER B. JONES, North Carolina
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JOE SESTAK, Pennsylvania             TRENT FRANKS, Arizona
GLENN NYE, Virginia                  CATHY McMORRIS RODGERS, Washington
CHELLIE PINGREE, Maine               DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
                 Drew Walter, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant




                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, June 9, 2010, Interagency National Security Reform: 
  Pragmatic Steps Towards a More Integrated Future...............     1

Appendix:

Wednesday, June 9, 2010..........................................    27
                              ----------                              

                        WEDNESDAY, JUNE 9, 2010
 INTERAGENCY NATIONAL SECURITY REFORM: PRAGMATIC STEPS TOWARDS A MORE 
                           INTEGRATED FUTURE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2

                               WITNESSES

Adams, Dr. Gordon, Distinguished Fellow, The Henry L. Stimson 
  Center, and Professor of International Relations, American 
  University.....................................................     5
Locher, James R., III, President and Chief Executive Officer, 
  Project on National Security Reform............................     3
Pendleton, John H., Director, Force Structure and Defense 
  Planning Issues, Defense Capabilities and Management Team, U.S. 
  Government Accountability Office...............................     9
Thompson, Dr. James R., Associate Professor and Head, Department 
  of Public Administration, University of Illinois-Chicago.......     7

                                APPENDIX

Prepared Statements:

    Adams, Dr. Gordon............................................    50
    Locher, James R., III........................................    34
    Pendleton, John H............................................    62
    Thompson, Dr. James R........................................    59
    Wittman, Hon. Rob............................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 INTERAGENCY NATIONAL SECURITY REFORM: PRAGMATIC STEPS TOWARDS A MORE 
                           INTEGRATED FUTURE

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                           Washington, DC, Wednesday, June 9, 2010.
    The subcommittee met, pursuant to call, at 1:03 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. Welcome to the Oversight and Investigations 
Subcommittee hearing on interagency national security reform. 
Over the past decade, dozens of major government commissions, 
think tanks, and other experts have recommended significant 
changes to better integrate and apply all of the country's 
capabilities to national security challenges. The 9/11 
Commission, the Hart-Rudman Commission, the Hurricane Katrina 
Lessons Learned Working Group--all have cited a lack of 
interagency coordination as a key weakness of our national 
security system.
    I am pleased to see the administration of President Obama 
recognize these problems. Secretary Gates, Secretary Clinton, 
and National Security Adviser Jones also support reform. Most 
recently, President Obama's National Security Strategy released 
in May highlighted the need for enhanced integration, saying, 
``The executive branch must do its part by developing 
integrated plans and approaches that leverage the capabilities 
across its departments and agencies to deal with the issues we 
confront. Collaboration across the government must guide our 
actions.''
    I commend the President and his team on his leadership and 
am eager to see how he intends to implement this vision.
    But Congress must play its part, too. In fact, Congress 
must lead the way, just as it did with the Goldwater-Nichols 
Defense Reorganization Act of 1986. We have been here before. 
We have seen similar problems; the same inertia against reform. 
We have also seen success as the culture of our military 
shifted to fully embrace jointness as a fundamental operational 
principle. As with Goldwater-Nichols, interagency national 
security reform will be a long, difficult process. But we must 
start with practical steps in the right direction. And that is 
what we are here today to discuss--practical and realistic 
near-term steps that we can take to improve interagency 
coordination and collaboration.
    The witnesses we have today have a variety of professional 
backgrounds and perspectives, but all are experts on how our 
interagency national security system works and how it doesn't. 
I look forward to hearing their recommendations on practical, 
near-term steps the Armed Services Committee and the larger 
Congress should take to improve the system.
    Now I recognize Mr. Wittman for any opening statement.

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Thank you, Mr. Chairman, and thank you so much 
to our witnesses for taking time out to be with us this 
afternoon.
    I first want to commend Chairman Snyder for calling this 
hearing. As you know, we addressed the subject of interagency 
reform and the Project on National Security Reform's [PNSR's] 
December, 2008 report, ``Forging a New Shield,'' just over a 
year ago, and in that hearing, we heard expert testimony on 
this vexing issue from distinguished experts who offered a 
range of opinions. We expected and welcomed a diversity of 
views, especially on this committee and especially on this 
topic.
    There seems to be general agreement that we need a better 
system of coordinating our national security efforts, but not 
necessarily agreement on how. The nature of the Washington 
bureaucracy is to maintain the status quo both in the executive 
and legislative branches. If we are able to institute new 
structures and processes in the administration and Congress, we 
can expect those processes will remain in place for many years.
    Whatever we do, if anything, has to be carefully 
considered, and we must be sure that national security will be 
improved by the changes because we will live with them for many 
years. The principle challenges lie in resolving command and 
budget authorities, yet another issue shared by the Congress 
and the executive branch. Last year, I cited the Intelligence 
Reform Act of 2004 as a rare example of recent interagency 
reform. And while these reforms are real, the Congress 
struggled with how much command authority and budget authority 
to vest in the new Director of National Intelligence [DNI] with 
apparent consequences to this day.
    I am pleased to see that the PNSR report published as part 
of a follow-up or the follow-up report itself last September 
entitled ``Turning Ideas into Action,'' which does just that--
proposes specific measures that can be taken to achieve a more 
cohesive and agile national security structure. I am pleased 
that the principal author of both reports is with us today. I 
appreciate that. I would like to have today's witnesses apply 
the PNSR suggested structure or their own thoughts to a couple 
of today's real world problems.
    First of great concern to this subcommittee is the 
planning, coordinating, and executing of an effective 
interagency response to our national efforts in Afghanistan and 
Pakistan. What would you do differently? The second and no less 
urgent but less complex: How would you manage the Federal 
Government's response to the oil spill in the Gulf of Mexico?
    I am grateful to have such distinguished witnesses here 
before us today to comment on the PNSR's work, and I look 
forward to your testimony.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 31.]
    Dr. Snyder. Thank you, Mr. Wittman, for your comments today 
and for all you have done on this full committee and 
subcommittee through your time and service here.
    We are pleased today to have four witnesses: Mr. James 
Locher, III, the President and CEO of the Project on National 
Security Reform; Dr. Gordon Adams, Distinguished Fellow at the 
Henry L. Stimson Center; Dr. James Thompson, Associate 
Professor and Head of the Department of Public Administration, 
University of Illinois, Chicago; Mr. John Pendleton, Director, 
Force Structure and Defense Planning Issues at U.S. Government 
Accountability Office.
    Dr. Snyder. Thank you all for being here. We will start 
with Mr. Locher and then proceed right on down the line. We 
will have the light system go off. When the red light goes on, 
that mean five minutes have gone by. We will not hit you or 
anything, but the sooner you wrap up your time after that, the 
sooner we can get to our questions and discussions.
    So, Mr. Locher, we will begin with you. Your opening 
statements will be made part of the record.
    Mr. Locher.

STATEMENT OF JAMES R. LOCHER III, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, PROJECT ON NATIONAL SECURITY REFORM

    Mr. Locher. Thank you, Mr. Chairman. Chairman Snyder, 
Ranking Member Wittman, and members of the subcommittee. I am 
delighted to appear before you to testify on national security 
reform. I want to commend the committee for its leadership on 
this critical issue. It reminds me of this subcommittee's role 
in formulating the House's version of the landmark Goldwater-
Nichols Act. And I should mention that a current member of the 
subcommittee, Mr. Spratt, was a member of the subcommittee back 
during the Goldwater-Nichols formulation.
    The lessons of Goldwater-Nichols are instructive on the 
role Congress must play on national security reform. Goldwater-
Nichols has been a historic success. It produced the world's 
premier joint warfighting force. But it must be remembered that 
entrenched Pentagon interests bitterly opposed this 
legislation. A 4-year, 241-day struggle between the Armed 
Services Committees and the Department of Defense ensued. The 
committees used every tool at their disposal to pressure, prod, 
question, and introduce new ideas. National security reform 
will require even more congressional energy to overcome 
executive branch inertia. Despite its difficulty, national 
security reform is not impossible.
    Again, the Goldwater-Nichols experience is instructive. 
When work on that Act began, 95 percent of the experts 
predicted it would never happen.
    Mr. Chairman, as you mentioned, President Obama's National 
Security Strategy has reinvigorated the drive to transform the 
national security system. Let there be no mistake. The 
strategy's goals cannot be achieved without sweeping 
transformation. In organizational terms, the strategy calls 
for, one, a strengthening of national capacity through a whole-
of-government approach; two, updating, balancing and 
integrating all tools of American power; three, broaden the 
scope of national security; four, emphasizing the foundations 
of national power, sound fiscal policy, education, energy, 
science and technology, and health; fifth, aligning resources 
with strategy; sixth, taking a longer view; seventh, forming 
strategic partnerships with organizations outside of 
government, essentially taking a whole-of-Nation approach. 
These goals endorse many of the ideas that the Project on 
National Security forum has put forth.
    With Congress's important role in mind, the subcommittee 
asked for testimony on pragmatic, near-term steps that can be 
taken to move forward on national security reform. My written 
statement identifies 10 such steps. I will speak to three 
important ones. By far the most important step would be to 
require the President to submit an implementation plan for the 
organizational changes prescribed by the new National Security 
Strategy. Most strategy documents contain a lofty set of goals 
which go unrealized when there is no follow-through. Congress 
must insist on executive branch attention to the organizational 
goals that the President established. For each of his 23 goals, 
the President should identify the specific reforms that are 
needed and milestones for their achievement. Every year, 
Congress should ask for a scorecard measuring progress towards 
these reforms and for an updated implementation plan.
    The second and related near-term step would be to require 
the Assistant to the President for National Security Affairs to 
submit a plan for achieving the needed organizational capacity 
of the National Security Staff [NSS], realizing the whole-of-
government integrated approach articulated by the National 
Security Strategy will require a significant strengthening of 
the National Security Staff. Today, that staff is under-
resourced and institutionally weak. The Assistant to the 
President for National Security Affairs, who does not even 
exist in the law, has only an advisory role.
    The National Security Staff has become the most important 
staff in the national security system, if not in the world. 
This evolution has not been properly recognized. The staff 
totals 230 people; has a tiny budget--$8.6 million when General 
Jones took over; and is poorly supported. National security 
reform needs to start at the top of the system with the 
National Security Staff.
    One of the most, if not the most, important reforms 
advanced by Goldwater-Nichols was joint officer management. By 
creating incentives, requirements, and standards for joint 
officers, those provisions significantly improve the 
performance of joint duty and led to creation of a joint 
culture. Congress acted on the joint officer issue because it 
had concluded, ``For the most part, military officers do not 
want to be assigned to joint duty; are pressured or monitored 
for loyalty by their services while serving on joint 
assignments; are not prepared by either education or experience 
to perform their joint duties; and serve only a relatively 
short period once they have learned their jobs.''
    Analyses of the interagency personnel situation reveals 
similar problems. A near-term step with enormous potential 
would be to establish an interagency personnel system to create 
the proper incentives, education, and training for personnel 
assigned to interagency positions. This reform is being studied 
on Capitol Hill and could begin the major transformation that 
is needed.
    In conclusion, I, once more, commend Chairman Snyder and 
Ranking Member Wittman for holding this hearing and for 
searching for pragmatic, near-term steps that would compel the 
start of the bold transformation that the Nation desperately 
needs. The national security system must be modernized to meet 
the challenges of the 21st century. The task will be 
monumental, but there is no alternative. Without sweeping 
changes, the Nation will experience repeated failures, wasted 
resources, and continue to decline in American standing and 
influence. We can and must find the resolve and political will 
to create a modern national security system.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Locher.
    [The prepared statement of Mr. Locher can be found in the 
Appendix on page 34.]
    Dr. Snyder. Dr. Adams.

STATEMENT OF DR. GORDON ADAMS, DISTINGUISHED FELLOW, THE HENRY 
 L. STIMSON CENTER, AND PROFESSOR OF INTERNATIONAL RELATIONS, 
                      AMERICAN UNIVERSITY

    Dr. Adams. Thank you, Mr. Chairman. I join Jim Locher in 
congratulating the subcommittee on having these hearings and 
the Congress in general for beginning over the last few years 
to take this set of issues more seriously I think than has 
happened in a long time. So both Chairman Snyder, Ranking 
Member Wittman, thank you very much for the hearing and the 
opportunity to talk at this hearing.
    I can join in many of the suggestions and recommendations 
that my colleague and friend, Jim Locher, has put before you. I 
want to come at this issue from a slightly different angle and 
put some more fodder in the trough, if you will, for 
consideration by the Hill.
    The process of reforming agencies and for reforming 
interagency process is enormously hard. If it wasn't, it would 
have happened. And it hasn't happened yet. A lot of good 
effort, including PNSR's, has gone into trying to push all 
aspects of the system in the direction of reform. We know how 
hard it is, having seen in recent years the experience of such 
changes as the Office of the Director of National Intelligence, 
the Department of Homeland Security [DHS], the National 
Counterterrorism Center [NCTC], all of which have had their 
strengths and obvious weaknesses as instruments of reform in 
the national security system. So one goes at this issue with 
some caution in terms of the results you can expect from 
shuffling boxes, changing processes, changing committees, and 
so on. It is very difficult.
    To me, the key issue here that I try to identify in my 
testimony is: What is the problem we are trying to solve? 
Because any set of reforms really needs to look at what is it 
we are trying to solve. Not just let's reform for the sake of 
reform, but what is the specific problem we are tackling, and 
what is the mission of the United States Government and its 
national security agencies in tackling an agenda of reform?
    I would submit to you, as I suggest in my testimony, that 
one of the major reasons that we have this interest and these 
sets of hearings derives from an experience that Ranking Member 
Wittman mentioned--Afghanistan, but also Iraq. That is to say 
the performance of the American government in Iraq and in 
Afghanistan, and by relation, Pakistan, as you mentioned. The 
circumstances of those particular cases are quite unique, 
however. These are cases where the United States actually used 
a major kinetic capacity to intervene with the goal of 
overthrowing a regime inheriting instability, social chaos, 
economic reconstruction, governance, if you will, in those two 
countries by virtue of our own direct military action and 
ultimately an insurgency designed to oppose the government we 
supported and our own forces in those countries.
    So the reform question that grew out of that set of 
problems, Iraq and Afghanistan, has been defined as the absence 
of a civilian capacity to deploy alongside U.S. forces on the 
civilian side of this kind of kinetic exercise. If we reform to 
that case, we run the risk of fighting the last post-war. And 
while there are real problems in those cases, and they identify 
some very interesting ones, we do need to ask ourselves, as we 
approach a reform agenda: Are we tackling the right problem if 
we reform to build that kind of interagency relationship and 
that kind of capacity.
    So mission, to me, is the key starting point. My testimony 
posits that mission or problem is not so much the invasion, 
applied civilian capability, and terror. It is governance, 
which is the absence of weakness, fragility, brittleness in 
governance in key areas of the world where our interests are at 
stake. The key problem, then, is the absence of a clear 
civilian sense of mission in tackling this problem, which is 
primarily a civilian problem. It may be largely non-kinetic, 
preventive, and smaller in nature than the cases of Iraq and 
Afghanistan.
    So the focus of reform needs to be on the civilian agencies 
and capabilities first. Not the interagency first, so much as 
the capabilities on the civilian side where, as I say in my 
testimony, we have a diaspora of organizations and 
institutions. We have the absence of a strategic planning 
culture in those agencies and inadequate resourcing dollars and 
people and appropriate training for its people to conduct their 
responsibilities in fulfilling that mission of governance.
    We have a large imbalance as a consequence between State 
and DOD [the Department of Defense] in resources and culture, 
which has led to an expansion of Defense missions. But that 
runs the risk of every problem looking like Iraq and 
Afghanistan. One of the key issues for the interagency then is 
how do we restore that balance? I suggest in the testimony 
reforms that can be applied in DOD that would both discipline 
and clarify DOD's mission in the foreign affairs agencies where 
we can deal with civilians, capabilities, resources, and 
training, and in the interagency, where, in particular, I would 
focus on NSC/OMB [National Security Council/Office of 
Management and Budget] coordination, the creation of strategic 
planning capabilities and mission planning oversight. And in 
the Congress I suggest, among other things, a single budget 
function for 150 and 050, to use budget speak, and joint 
oversight hearings in such areas as security assistance, 
governance, and civilian capabilities.
    The only caveat that I will put in closing, Mr. Chairman, 
is that we be beware of the sin of hubris. That is to say, it 
is not clear that we can or should be responsible for dealing 
with these kinds of problems internationally in every instance, 
and it is not clear that we are always very good at doing it, 
even building the best interagency and agency capabilities to 
do it.
    With that, I will submit the rest of my testimony for the 
record and look forward to your questions.
    Dr. Snyder. Thank you, Dr. Adams.
    [The prepared statement of Dr. Adams can be found in the 
Appendix on page 50.]
    Dr. Snyder. Dr. Thompson.

  STATEMENT OF DR. JAMES R. THOMPSON, ASSOCIATE PROFESSOR AND 
   HEAD, DEPARTMENT OF PUBLIC ADMINISTRATION, UNIVERSITY OF 
                        ILLINOIS-CHICAGO

    Dr. Thompson. Thank you, Mr. Chairman and honorable 
members, for the opportunity to testify here today. About a 
year ago, my colleague, Rob Seidner, who is here today, he and 
I received a grant from the IBM Center for the Business of 
Government to write a report on human capital reforms in the 
Intelligence Community. The reason we were interested in the 
Intelligence Community is it was the only example we were aware 
of in the Federal Government of what we call a federated human 
resource system, whereby personnel authorities were shared by 
the center--in the case, the Office of the Director of National 
Intelligence--and the elements or agencies, of which there are 
about 16.
    The centerpiece of the Intelligence Community human capital 
reforms was the joint duty program, which was mandated by the 
Intelligence Reform Act of 2004, and in turn, by the 9/11 
Commission, which identified a lack of interagency 
collaboration as one of the causes of the unfortunate events of 
that day. The joint duty program, of course, is modeled after 
the Goldwater-Nichols program in the armed services, which is 
why they are considered to have been a success. The intent was 
to break down parochial attitudes among the senior officials 
within the agencies by having them serve time in agencies other 
than the agency in which they spent most of their careers.
    The Intelligence Community also developed a series of other 
reforms, some of which were in support of the joint duty 
program. For example, one of the concerns was that officials 
would not participate in joint duty if they felt that their pay 
and/or promotion opportunity would be at risk. So the 
Intelligence Community spent a lot of time developing a common 
compensation system, which they called the National 
Intelligence Civilian Compensation program. That program 
includes a pay-for-performance element and pay banding, et 
cetera. That program has been halted temporarily at least by 
the National Defense Authorization Act. A report just came out 
last week from the National Academy on Public Administration 
which, by and large, gave the program a positive review. So it 
is possible that the community will restart implementation of 
that program.
    The community also developed a common performance 
management program. That is, officials throughout the community 
are assessed according to the same performance elements, so 
that if an individual does in fact accept a joint duty 
assignment in another agency, he or she can be assured of 
having his or her performance appraised on the same basic 
elements regardless of where he or she goes.
    Other elements of the Intelligence Community's reforms 
included a common human resource information system. There is 
also a training component. The Office of the Director of 
National Intelligence has created a National Intelligence 
University [NIU], and there is joint leadership training being 
provided through the NIU to officials who are participating in 
the joint duty program. I should add, by the way, that the 
joint duty program has been phased in and will not be fully 
effective until October of this year.
    Lessons learned from our research. One is that as a 
consequence of the nature of the authority or lack thereof 
given the Director of National Intelligence, the Intelligence 
Community went through a highly collaborative process to design 
the joint duty program. A downside was it took them a long time 
to do it, but an upside has been that there is very significant 
buy-in among the agencies into the joint duty program, such 
that it is likely to be sustained over time.
    A down side, however, is that it is somewhat vulnerable to 
having agencies kind of exempt from some of the provisions of 
their program. For example, the agreed-upon policy is that only 
the DNI and the Under Secretary of the Defense for Intelligence 
can provide waivers to the joint duty requirement. However, 
that is simply in the form of what the Intelligence Community 
calls a treaty among the agencies. Legally, any agency head 
could waive that particular provision and decide on his or her 
own to promote somebody without appropriate joint duty 
certification.
    So the issue of the authority of the DNI does figure 
importantly in this discussion of how to structure a joint duty 
program more broadly.
    Another important lesson that we had learned was the idea 
of making sure that an infrastructure is in place to support 
the joint duty program. I mentioned the common compensation 
system that the Intelligence Community is trying to put into 
place to facilitate transfers.
    A final observation would be with regard to the Senior 
Executive Service [SES] itself, which is that program was 
intended to consist of a corps of generalists, but has never 
really achieved that vision. It is largely because most of the 
members of the SES spend most of their careers in a single 
agency. I think that is, in part, a consequence of the fact the 
SES assignments are made at the Department level. In Britain, 
in contrast, the senior members of the civil service are 
considered a corporate asset and SES assignments are made 
centrally at the government level. I think there is a lesson to 
be learned both by the government in general but also the 
national security community as to a possible way of structuring 
any prospective joint duty program across the community, which 
would be to make sure assignments are made centrally rather 
than by each department independently.
    That will conclude my testimony. Thank you.
    Dr. Snyder. Thank you, Dr. Thompson.
    [The prepared statement of Dr. Thompson can be found in the 
Appendix on page 59.]
    Dr. Snyder. Mr. Pendleton.

 STATEMENT OF JOHN H. PENDLETON, DIRECTOR, FORCE STRUCTURE AND 
 DEFENSE PLANNING ISSUES, DEFENSE CAPABILITIES AND MANAGEMENT 
          TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Pendleton. Mr. Chairman, Ranking Member Wittman, and 
members of the subcommittee, thanks for inviting me today to 
discuss GAO's [the Government Accountability Office's] work 
related to interagency collaboration. Given the growing call 
for better collaboration, we recently published a report that 
summarized GAO's body of work in this area. Our report cites 
dozen of examples. Several of those are included in my prepared 
statement. Let me briefly highlight three that illustrate the 
challenges in working across agency boundaries toward common 
goals.
    First, our work looking at the planning to manage a 
pandemic flu outbreak found that the strategies lacked clarity 
on who would lead efforts--Health and Human Services or 
Homeland Security. Should we have a significant flu outbreak, 
sorting out who is in charge could waste valuable time. Second, 
the differences in size and culture between the Defense 
Department and the civilian agencies create a number of 
difficulties. DOD dwarfs other agencies. DOD and State 
literally divide the world up differently and they take very 
different approaches to planning. In the past, DOD plans were 
drawn up in isolation, with interagency consultation largely an 
afterthought. We have made a number of recommendations on this. 
And to its credit, DOD has begun to take some steps toward 
involving civilian agencies earlier in its planning.
    Third, a failure to connect the dots is often blamed after 
security lapses. This is often ultimately traceable to 
inadequate information sharing. Our recent work on biometrics 
data; information such as fingerprints and images of iris in 
the eye found that DOD was collecting information in the field 
in ways that made it incompatible with Homeland Security and 
FBI databases.
    Next, I would like to describe a couple of organizations 
within DOD that have served as laboratories of a sort for 
refining interagency collaboration. Northern Command [NORTHCOM] 
and Africa Command [AFRICOM]. Such regional commands are where 
military efforts are conceived and planned. Both NORTHCOM and 
AFRICOM have missions that require them to work closely with 
other agencies and other nations, both are relatively new, and 
both have faced myriad problems that illustrate the challenges 
being discussed today. Hurricane Katrina made evident to me for 
NORTHCOM to synchronize its efforts with a range of federal, 
state, and local agencies. We recently completed a 
comprehensive examination of NORTHCOM's efforts to enhance 
interagency coordination for homeland defense and civil-support 
missions and found a number of gaps still exist. We found, for 
example, unclear roles and responsibilities still exist. DOD's 
overarching guidance is 15-, sometimes 20-years old, and it 
pre-dates the creation of NORTHCOM. This creates a number of 
problems, not the least of which is many of these directives 
show the Army in charge, which they were before NORTHCOM was 
created. More concerning is that NORTHCOM's own assessments of 
its capabilities show a number of gaps concerned about the 
ability to share a common operational picture or plan in the 
interagency.
    Looking outside the United States, DOD's newest combatant 
command is Africa Command. It spotlights how the lines of 
national security, defense, diplomacy, and especially 
development are becoming more and more blurred. A lot of what 
AFRICOM does is not traditional warfighting. It involves 
strengthening African military capabilities, helping nations 
respond to crises, building infrastructure, such as schools and 
hospitals. Creating a blended command with personnel from other 
agencies embedded and serving and key positions was one of the 
ways that AFRICOM sought to improve collaboration. However, 
interagency personnel just weren't available in the numbers 
that DOD had hoped. It was far from clear what those personnel 
would do when they arrived at AFRICOM. And possibly most 
important, it was uncertain to them what impact serving at 
AFRICOM would have on their own careers.
    Finally, let me give you an example how interagency 
challenges can play out on the ground. Our recent work on 
AFRICOM's 1,600 person taskforce in the Horn of Africa region 
revealed that DOD personnel are not always adequately trained 
to work in Africa, and this has resulted in a number of 
cultural missteps. One example that seems small but I think 
illuminates a larger problem, AFRICOM'S taskforce distributed 
used clothing to local villagers. But that offended the Muslims 
during Ramadan. Had they talked to U.S. Embassy, State, and 
AID, they could have provided guidance on sensitive cultural 
issues like this. We found a number of similar issues.
    Given that the type of work DOD is doing in Africa is 
different from what military personnel are normally trained 
for, we recommend that AFRICOM develop a program to increase 
cultural awareness and training on working in an interagency 
environment. Such training, not just at AFRICOM, but across DOD 
and the interagency, will become even more important as 
national security issues become increasingly blended across 
multiple agencies.
    That concludes my statement. I would be happy to take any 
questions. Thank you.
    [The prepared statement of Mr. Pendleton can be found in 
the Appendix on page 62.]
    Dr. Snyder. Thank you all for your testimony today, and 
also all four of you have a long history of public service in 
these areas and others. We will all put ourselves on the five-
minute clock here and probably have time for at least a couple 
of rounds of questions and maybe a little bit more.
    One of the challenges that I think, not just us, but anyone 
who looks at this topic has, and doesn't spend all their time 
in it as perhaps all of you do, is trying to get a handle 
around exactly what the problem is.
    Mr. Pendleton, I thought your one-paged, bite-size morsel 
of what GAO found when we go right to the one-pager, which we 
are House Members, so we look for the bouillon cubes in these 
things. But, of course, you called your report: The challenges 
and solutions to strengthen interagency collaboration. I am 
going to ask Mr. Locher in a moment if he thinks we should 
define the goal as being more than just collaboration. But you 
have four problems areas: Developing and implementing 
overarching strategies; creating collaborative organizations, 
which I think gets to a whole culture of different 
institutions; developing a well-trained workforce; and sharing 
and integrating national security information.
    It seems like that is a construct that I can kind of get my 
mind around. We need a shared strategy; a culture that 
recognizes collaboration is important; a good workforce; and 
the ability to share information.
    Mr. Locher, do you think that description is at the heart 
of what you all are trying to solve in the work you have done 
in the last several years?
    Mr. Locher. Mr. Chairman, I think the things that have been 
mentioned in Mr. Pendleton's statement cover many things that 
need to be done--the strategy, collaborative organizations, 
better training and education of the workforce, and sharing 
innovation. But if you had foreshadowed this question to me 
about collaboration, I think in many cases we need a lot more 
than collaboration. We actually need integrated effort. We need 
to be able to create teams well in advance of any sort of 
crisis that can really formulate policy on an integrated basis, 
that can do strategy on an integrated basis, that can figure 
out planning on an integrated, can figure out how we are going 
to align resources, and then if we actually have to conduct an 
operation, can do so on an integrated basis.
    Dr. Snyder. So if I understand, what you are saying is you 
believe there is a difference between integration and 
collaboration. Collaboration implies perhaps two separate 
organizations that see a need to get together maybe on a 
regular basis, but they are still separate organizations. You 
are talking about somehow they are integrated together and 
locked in together on a more permanent basis.
    How do you respond to Mr. Locher's comments there, Mr. 
Pendleton?
    Mr. Pendleton. When we wrote the paper, the four areas are 
interrelated and describing them as creating collaboration is 
just a construct to try to understand that you have got to 
start with strategy, you have got to work on the organizations 
and the people, and you have got to teach the individuals how 
to share information. If you turn this another way, over the 
years, looking at different organizations, what tends to happen 
to organizations is they start out with de-confliction. Just 
letting each other know what they are going to do. Then it 
hopefully moves up the integration chain. You are beginning to 
coordinate and ultimately you have an integrated strategy.
    DOD's efforts in, I think, the drug wars is a good example 
of something that 20 years ago you heard many of these same 
concerns being raised. As a young man, I was down in Key West 
hearing this; DOD had no business and needed to stay in its 
lane. Today, I have got other work going on and you hear a 
very, very different story. This stuff takes time.
    Dr. Snyder. Dr. Adams, you made a comment that Iraq and 
Afghanistan should not be seen as the motivation of why we need 
to change, which, I think, came from those very public 
discussions we had several years ago from Secretary Gates that 
there was inadequate civilian personnel available. And I think 
if I am reading you right, your point is that we should not see 
that as a definition of the problem; that, in fact, more likely 
than not we will have situations where the civilians will be in 
the lead, where the military needs to support them, rather than 
the military saying we need civilian support? Would you amplify 
on that, please?
    Dr. Adams. I would be happy to, Mr. Chairman. It is a very 
important question. It goes back to what I was saying at the 
beginning, what is the problem we are trying to solve, what is 
the mission we are trying to deliver. A lot of the undertone of 
the discussion of what we need in the interagency is a 
discussion of how we ought to anticipate and be prepared to 
intervene in crisis. But crisis means many things. The crisis 
that we tend to focus on is a very large intervention aiming at 
the use of military force to overthrowing another government 
where we do inherit an enormous problem of governance, one 
which we have demonstrated we are not good at dealing with or 
takes us a long time. As somebody once said, we will find 
almost all the solutions that are wrong before we find the 
right one. That, however, is not the typical kind of crisis 
that we are likely to come across. Typically, if we are focused 
on this problem of crisis, and that is just one set of where 
interagency has implications--what we are looking at ranges 
probably at its most demanding from the kind of, if you will, 
stabilization/peacekeeping mission that we did in the 1990s in 
the Balkans, down to humanitarian missions where we are 
delivering food assistance, humanitarian assistance, tents, 
water bladders, the kind of kit people need to survive in a 
disaster.
    That is the typical range of issues that we deal with and 
arguably in the wake of Iraq and Afghanistan, the kind of 
typical issue that we are going to want to deal with. Those 
kinds of problems tend, in my mind, to group themselves around 
a concept of governance. That the issue here is not so much 
insurgency as it is the inability of countries in various 
strategically important regions of the world to actually 
provide their own stability, their own public water, public 
services, their own social justice, their own legal justice, 
their own capacity to grow, develop and prosper. Governments 
have difficulties doing that in certain regions of the world.
    Defined that way, the kinetic requirement for what we do in 
the American government arguably is rather small. It is not 
invisible, but it is rather smaller than the kinetic capability 
we would maintain to do like Iraq or Afghanistan. And it may be 
quite peripheral to the question of how a civilian architecture 
actually over the long-term plans and deals with strengthening 
governance in those countries, in those regions, not something 
arguably the United States can do alone.
    I think the National Security Strategy recognizes this, 
that there are international organizations, allies, regional 
partners, all of which can play a role, even private NGOs, 
nongovernmental organizations, and business that can help deal 
with this issue of governance. It is an ongoing long-term 
problem, and arguably the precursor to any crisis that we are 
going to face that we need to plan for.
    So what I am saying is structuring the interagency to be an 
anticipatory large crisis manager of the relationship between 
large kinetic forces and large civilian capability to intervene 
in or respond to a crisis in another country may be, in a 
sense, overplanning the requirement that we are actually going 
to face.
    So the interagency, to my mind, involves both 
strengthening, particularly the civilian capacities, to deal 
with those kinds of governance problems and then finding a way 
in the interagency space to relate what the kinetic requirement 
might be to dealing with a particular situation where we are 
going to intervene.
    Dr. Snyder. Mr. Wittman, for five minutes.
    Mr. Wittman. Thank you, Mr. Chairman. I am going to go back 
to my original comments and start with Mr. Locher and get your 
thoughts on this. Really, what we are talking about here and 
all the efforts whether it is in Pakistan or Afghanistan or in 
the Gulf is planning, coordinating, and executing efforts among 
a lot of different agencies and lot of different levels of 
operations. So let me pose this: If you look at Afghanistan, 
Iraq, and even efforts in Pakistan, are there things that we 
should be doing differently, and if you look at efforts in the 
Gulf as we see interagency cooperation there, what would your 
suggestion be as to that scenario? Obviously, we are in the 
beginning stages of that management. But looking at those two 
examples that obviously have attracted a lot of attention and 
are attracting a lot of attention, give me your thoughts about 
what would be done differently in theatre and what you would do 
as far as managing the current operations there in the Gulf?
    Mr. Locher. A great question, Mr. Wittman. Let me start 
with Afghanistan and Pakistan. It also applies in Iraq. All of 
our efforts there are way too separate in the United States 
Government. We have had more collaboration more recently but we 
have not had the integrated effort that is absolutely required.
    I want to take an example. There is a study that is going 
to come out from the National Defense University about 
interagency high-value targeting teams in Iraq, which many 
people in the military believe are more important than the 
surge. Special operation forces were going out and looking for 
high-value terrorist targets. When they did so on their own, 
they had limited success. There was no mechanism to create an 
interagency team to go off and do this. But they recognized 
that need. And sort of through the force of personalities, the 
leaders of the special operations teams actually put together 
an effort that involved 8 or 10 departments and agencies.
    Now that capacity ended up producing tremendous results. It 
is that kind of effort that we need, whether we are talking 
about the oil spill in the Gulf or whether we are talking about 
operations in Pakistan or Afghanistan or in Iraq. And if you 
think about it, the military has taken the approach that we 
need to be able to operate from a regional basis. We have no 
civilian equivalent to that.
    On the civilian side, we are down at the country-level 
linked straight back to Washington. And so when we are doing 
Afghanistan-Pakistan issues, you have that difficulty of how 
you work across there. But we don't have an integrated 
taskforce. When the military goes off, it creates a joint 
taskforce with unity of command to do whatever is necessary.
    Now, in Afghanistan, it is really a political issue. So we 
need a civilian at the top of this chain of command making 
certain that everything we are doing, whether it is political, 
economic, or military fits into our overall strategy. So it is 
in that direction that our government needs to move.
    Dr. Adams. Can I take a crack at that question, 
Congressman? The Afghanistan-Pakistan situation in particular. 
I am not going to sit here as an expert on an oil spill effort 
that obviously is still underway. But in the Afghanistan-
Pakistan situation, my own view is that the problem in 
Afghanistan and Pakistan results less from the absence of an 
integrated capability than it does from two issues; one is an 
inherent lack of attention to the importance of Afghanistan 
that goes back a number of years. In other words, we simply 
took our eye off the ball in Afghanistan while we focused on 
Iraq. The consequence was we let time slip by that was valuable 
time where we might have conceivably had greater success.
    And secondly, arguably, what I came back to in my 
testimony, which is this is an inherently difficult situation. 
A better process and a better integrated effort still might not 
be able to resolve the challenges that we faced in Afghanistan, 
which are enormously complex and enormously local. So I say 
about the sin of hubris, it is being careful to know that even 
our best effort may not produce a better policy outcome or on 
that is optimal in terms of what our own interests might seek.
    That said, I think in those cases in particular, again, I 
would not argue by extrapolation to other crises, the absence 
of a focused civilian capacity in some areas is obviously one 
of the critical factors. We might have developed it earlier. We 
might have applied it earlier if we had focused on Afghanistan 
to begin with as a problem we needed to deal with. But I will 
hold out the jury in terms of our capacity to actually on our 
own determine the outcome of that situation.
    Mr. Wittman. I yield back, Mr. Chairman.
    Dr. Snyder. Mr. Wittman, I have to say you are looking very 
refreshed and sounding very intelligent for a man who won a 
primary election yesterday. Congratulations.
    Mrs. Davis for five minutes.
    Mrs. Davis. Thank you. Thank you all for being here and 
discussing interagency with us. I think sometimes people just 
kind of gloss over it when we talk about that. But it is very 
important, and we are here to try and assess where are we and 
how far you think we have come at this point?
    I wonder whether--I think, Dr. Adams, I think you mentioned 
getting to the balance of these issues. And I am wondering can 
we do that without a joint budget? Secretary Clinton mentioned 
a unified national security budget. She said we have to start 
looking at a national security budget. We can't look at 
Defense, State Department, and USAID without Defense 
overwhelming the combined effort of the other two and without 
us falling back into the old stovepipes that you have all 
mentioned that I think are no longer relevant for the challenge 
of today. So what do you all think? Would you support a unified 
budget and how in the heck would we get there?
    Dr. Adams. It is an excellent question. I do, in fact, 
support that concept because I think it is important--and this 
is what I was talking about earlier at the National Security 
Council [NSC] and OMB [Office of Management and Budget] level--
it is important to have the White House taking a good look at 
all of the instruments of statecraft in relationship to each 
other. As somebody who spent five years as the associate 
director at OMB for national security, I can tell you that that 
did not happen. It was extraordinarily difficult to do at the 
White House level. And there are two reasons why it is 
difficult.
    One is because there is no systematic way for those two 
White House institutions, OMB and NSC, National Security Staff, 
to actually formally interact with each other. So the 
interaction between the two is handcrafted at the beginning of 
every administration and then evolves over time. The National 
Security Council Web site still says the OMB director is 
invited as necessary to NSC principals' meetings. My view is 
that is just totally absurd; that the people who are in charge 
of the resources for the White House ought to be in every 
meeting the National Security Council holds with respect to any 
international crisis or international policy situation, because 
resources and policy are intrinsically linked, and those are 
the tools the White House can use to coordinate. So that is one 
of the difficulties.
    The other difficulty on the White House level is that 
neither the National Security Council nor the Office of 
Management and Budget have a strategic planning staff of any 
consequence. That has been tried the last couple of 
administrations and currently--to stand up a strategic planning 
office at NSC. There is minimal capacity and not a staff really 
trained to the art of strategic planning over the long term. 
OMB, having served there for five years, I can tell you also 
lacks that capacity. You work to an annual budget, a daily 
calendar. The long-term is six months. So actually creating a 
capacity in both organizations and a bridge between the two 
that links them at the hip in every issue is an important part 
for joining this.
    Now the other piece that the White House can do, and I 
don't believe this requires any particular congressional action 
except agreement that it is a wise thing to do, is that when 
the President's budget is transmitted to the Congress, it ought 
to come with a single budget function for the security 
institutions. That all of those institutions ought to be in one 
budget function at the Budget Committee level. This would 
minimally have the advantage of not leaving our foreign policy 
and civilian funding at the mercy of a Budget Committee which 
inherently will look for ways to cut and finds those particular 
agencies----
    Mrs. Davis. We certainly need to recognize how stovepiped 
Congress is as well in that regard----
    Dr. Adams. Correct.
    Mrs. Davis [continuing]. So it is part of the problem, of 
course, if you look at this issue. I was wondering if anybody 
else would like to weigh in on this.
    Dr. Adams. Just the other thought was, I think, along with 
that document there ought to come a document to the Congress 
which is a single security budget justification document that 
links priorities and missions and capacities and tools. That 
would have to emerge from a joint NSC-OMB process with the 
agencies that would literally look at how these capacities 
relate to each other and why one part supports capabilities and 
requirements in the other part of the budget.
    Mrs. Davis. Mr. Locher.
    Mr. Locher. Congresswoman, the Project on National Security 
Reform has recommended that there be an integrated national 
security budget. I think that would be hugely important, and it 
may have to be mandated by the Congress, requiring that the 
President's budget in the national security area be presented 
as an integrated budget. In my written testimony, I had 
proposed a first step of asking the Director of OMB to submit 
an integrated budget in two mission areas: in combating 
terrorism and in foreign assistance. That would give a start to 
this to be able to look across the entire departments and 
agencies and for the Congress to look at what an integrated 
budget might look like. But there is a tremendous amount that 
needs to be done in terms of national security budgeting. There 
is no guidance from the President down to the departments and 
agencies for their planning or development of their budgets. He 
ought to be able to articulate exactly what outcomes and 
missions he would like them to focus on. So this is an area 
that the Project has spent lots of time working on and hopes to 
develop further.
    Mrs. Davis. I think my time is up. Perhaps I will come back 
to you afterwards. Thank you.
    Dr. Snyder. Mr. Platts for five minutes.
    Mr. Platts. Thank you, Mr. Chairman. I certainly thank each 
of our witnesses for your testimony, both written and oral, and 
your insights. With the focus being jointness and better 
coordination and collaboration, following the tragic events of 
9/11 the Intelligence Reform and Terrorism Prevention Act of 
2004 did a number of things--the creation of the DNI [Director 
for National Intelligence], the National Counterterrorism 
Center. I would be interested in your perspectives of what has 
worked or not worked with the National Counterterrorism Center 
as an example of how we have tried to get the interagency 
coordination focused on a specific threat, terrorist threat. 
What shall we learn from this operation that is working or what 
is not working that we should be very aware of in going forward 
and trying to replicate this type of effort in a broader sense.
    Mr. Locher, given I am in your county, I understand you are 
a native of Lancaster next door, it is appropriate we allow you 
to start.
    Mr. Locher. Thank you, sir.
    The Project on National Security Reform has studied a part 
of the National Counterterrorism Center, the Directorate for 
Strategic Operational Planning, and I think while we understand 
that part of it best, the lessons there apply across all of the 
National Counterterrorism Center.
    In that directorate, there is not sufficient authority for 
it to conduct its responsibilities. There is lots of ambiguity 
with respect to the roles of other departments and agencies. 
The President really needs to issue an executive order that 
clarifies the responsibilities. Now that the National 
Counterterrorism Center and the Directorate for Strategic 
Operational Planning have been created, what is the 
responsibility of the State Department compared to this, and 
what is the responsibility of the Central Intelligence Agency 
[CIA]?
    We have the problem that often when the Directorate for 
Strategic Operational Planning is doing its work, State and CIA 
do not participate. 15 or 16 departments and agencies need to 
play there.
    We also have the challenge of personnel; how are people 
recruited to go there from the departments and agencies? How 
are they rewarded afterwards? I can tell you when it was 
created, lots of people went there with enthusiasm because they 
saw the opportunity that was presented by this organizational 
innovation. And both NCTC and the Directorate for Strategic 
Operational Planning are really organizational innovations, but 
they were formed imperfectly by the Congress.
    But as I was mentioning, people went out there for two-year 
details from departments and agencies. The military really 
rewarded the people that went there. My understanding is in 
civilian departments and agencies, they did not. But this is an 
area where we need a human capital system to give us the kinds 
of skills that are required.
    This directorate is really an extension of the National 
Security Staff. The National Security Staff is way too busy to 
be able to do strategy and to be able to do linking of 
resources with strategy, to do planning. This work could be 
done in subordinate organizations, such as the Directorate for 
Strategic Operational Planning, but that institutional 
relationship needs to be clarified, because it is now all 
personality-dependent.
    But the challenge the Congress had in the legislation was 
to balance between the authority of a central figure, the 
Director of the National Counterterrorism Center or the 
Director of National Intelligence, and the continued 
independence of the components, the 16 departments and agencies 
who have intelligence capabilities or play in the combating 
terrorism world.
    In my view, the Congress did not find the right balance. 
There needs to be some strengthening. But the first step could 
be taken by the President through an executive order.
    Mr. Platts. So the DNI having a more clear command and 
authority over Navy personnel, or whoever is within that 
center, no matter what agency they come from?
    Mr. Locher. Well, in terms of this particular center, the 
National Counterterrorism Center, the director there does not 
have authority over personnel matters. He also has no authority 
over budgeting. So his authority is somewhat limited. It is a 
coalition of the willing, and every once in a while that 
coalition can be put together, and when it is, it can produce 
some powerful answers for the United States. But it is very 
difficult to do, and because it is only a coalition, he has to 
be very careful as to how he tries to exert any authority he 
has.
    Dr. Adams. Let me try to address this issue you raised, Mr. 
Platts, from a different direction, but complementary, I think, 
to what Jim Locher had to say.
    The National Implementation Plan which emerged from the 
division that Mr. Locher referred to is probably the most 
ambitious exercise that we have studied at attempting to bring 
a coordinated approach to strategy and guidance to agencies. 
There has rarely been a more forward-thrusted interagency 
deliberate and conscious and statutorily demanded exercise at 
interagency coordination than the National Implementation Plan.
    While an awful lot of that is classified, that was not an 
unqualified success. Part of the reason that I think it was not 
an unqualified success lies in part in some of the staffing 
issues that Jim Locher referred to. Part of it lies in the 
weaknesses that I was noting earlier in the White House, that 
at the White House level National Security Staff and OMB, the 
amount of time and commitment to the National Implementation 
Plan was extremely thin, very small at the NSC level, with it 
ending up being the Deputy National Security Adviser pushing 
the effort forward, and NCTC was not an NSS agency so it had to 
be done by an act of will. And OMB had two examiners dealing 
with the budgetary consequences of the National Implementation 
Plan, both of whom had full-time jobs, assignments to other 
agencies that they were responsible for coordinating.
    What that meant was you got a very elaborate plan with, as 
I understand it, 500 or 600 different taskings to agencies to 
coordinate counterterrorism policy across agencies, no capacity 
at the National Security Council staff to follow through on 
whether those were actually done, and no capacity at the Office 
of Management and Budget in the White House to follow through 
and find out if agencies had actually put resources behind the 
tasking that had been handed to the agencies.
    So the consequence of that, I think, was instructive as to 
how difficult it is without adequate staffing and resourcing at 
the White House level to make sure this followed through. NCTC, 
in my judgment, was probably the wrong place to focus the 
leadership of the effort because of that. It was just too 
weakly backed up at the White House level.
    Mr. Platts. I yield back, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Platts.
    We will go a second round here. I think we are going to 
have votes sometime in the next 10 to 30 minutes or so. We will 
try to get through another round before then.
    Mr. Locher, in your statement you talked about the National 
Security Advisor having a total staff of 230 people, and in 
your words, a tiny budget of $8.6 million when General Jones 
took over. You referred to it as, you say the National Security 
Staff has become the most important staff in the national 
security system, if not in the world, and you suggest, I think, 
a substantial increase in staffing and authority and budget.
    How do you resolve this question? We have had this 
discussion before with Michelle Flournoy back when she was a 
think-tanker, as to the National Security Advisor. Congress 
doesn't have much oversight over the National Security Advisor. 
That is the President's, I don't know if I want to say personal 
advisor, but we can't call in the National Security Advisor and 
say why did you spend that money there, why did you use this 
person there, what did this person say to you? Let's see your 
records.
    So you are asking the Congress to substantially increase 
the staff, authority, and scope of the job of the National 
Security Advisor, when, in fact, we don't have any oversight 
authority.
    Comment on that issue, please.
    Mr. Locher. Well, in our project, this was a major issue. 
The President has an adviser. He is the Assistant to the 
President for National Security Affairs, but he is known as an 
adviser because that is the limit of his role. We argue in the 
project that what the President needs today is he needs a 
national security manager, somebody who can make this system 
decisive, integrated, focused on national missions and 
outcomes; make it act quickly in an integrated fashion. We 
think the position should exist in law. It does not now, but it 
should exist in law, and have the Congress specify what the 
duties of the position are.
    If you think about it, there would have to be a 
considerable discussion of whether this position should be 
confirmed by the Senate. Our project did not come down and make 
a decision on that issue, but it will have to be debated.
    One of the things that we know is in today's world, it is a 
whole-of-government approach, and we have argued that the 
Congress needs the ability to take such an approach. It needs 
to be able to work in more than the committee stovepipes. It 
needs to be able to be up there at the level where it can 
oversee the entire national security system. And there will 
have to be some mechanism created in Congress to do that. We 
proposed a Select Committee on National Security.
    Dr. Snyder. I understand that issue. But I am talking 
specifically about the issue of National Security Advisor.
    Mr. Locher. The reason I raised this is because right now 
the only person in the executive branch who can talk to the 
Congress more broadly is the National Security Advisor. When 
you hear from departmental secretaries or agency heads, you are 
hearing it from their perspective.
    There needs to be much more of a dialogue between the 
National Security Advisor, whatever his title and position is, 
and the Congress, because the really important issues today are 
the issues that are out there in that interagency space, they 
are issues that cut across. And there is currently no 
opportunity for a dialogue because the National Security 
Advisor is seen as only an assistant to the President and does 
not appear before the Congress. This is an issue that will have 
to be addressed. We may not have thought through all of the 
dimensions of this issue, but it produces a void today.
    Dr. Snyder. I agree with that. And it creates an issue of 
let's suppose you go to it being a confirmable position that we 
can call him up here to testify and have General Jones sitting 
here, and then do you get into the line of authority issues 
where essentially the Secretary of State reports to the 
national security manager, who reports to the President, and 
then you have, at some point, the President say I need a 
confidential adviser; I can call in and have these discussions 
and make my will known without having that person called before 
the Congress, so I will have the national security assistant.
    I don't know. I think that is how this all came about. I do 
think it is an ongoing issue though, and it is one, I think, 
that will need to be resolved if the Congress were to follow 
the direction you suggest, which is a substantial increase in 
budget and authority and staffing for the National Security 
Advisor, because right now it is something we don't have the 
ability to provide the kind of oversight I think most Members 
of Congress would like to.
    Mr. Pendleton. I would like to weigh in on it, if I could.
    Dr. Snyder. Sure.
    Mr. Pendleton. I would like to confirm your concern about 
oversight. The NSS is pretty opaque to us at GAO. We 
occasionally meet with the staff. They are very busy and pretty 
small, and it is sometimes an issue. I have a job going on now 
for the House Committee on Oversight and Government Reform 
looking at anti-piracy efforts, and we have been trying for 
several months to get a meeting to talk to the NSS staff about 
what they are doing to coordinate the efforts across the 
government, and we never seem to get it scheduled.
    So I think working through those oversight issues so we can 
do our job for you, but also so the Congress can take a look at 
what is happening there, would be very, very important.
    Dr. Snyder. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to maybe 
go from a little bit different direction on the question that 
you asked, and we will go to Mr. Locher.
    It seems to me the paradigms that a couple of agencies use 
here differ. If you look at the Department of Defense, they 
look at setting up regional commands and doing things on a 
regional basis. Then you look at State Department, and the 
State Department does them on a country-by-country basis. There 
is a lot of discussion back and forth about which model is the 
best, which one is most effective, which one is most inclusive 
in trying to coordinate efforts across the spectrum.
    How would you suggest resolving those differences? We have 
such crossover today with these agencies that are dealing with 
these issues and we see what is happening around the world, 
Afghanistan with the provincial reconstruction teams [PRTs], 
with the integration of different agencies there.
    How do you resolve the differences between how DOD puts 
their paradigm in place on that regional basis and the 
Department of State that does it on a country-by-country basis?
    Mr. Locher. Mr. Wittman, there is some good news in this 
regard because in the House version of the National Defense 
Authorization Act, there was a provision added on the floor, I 
think by Congressman Langevin and Congresswoman Shea-Porter, 
about a common map. It requires the President to do a study of 
how we are organized differently in the departments and 
agencies that have international responsibilities.
    Right now, each department and agency has been able to 
define the geographic boundaries to suit its needs, and in an 
earlier era, that was fine. Today it is an integrated effort. 
It is a whole-of-government approach. And if we allow those 
boundaries to be different, it just creates more difficulty in 
working the issues.
    So I think this is a great provision. When General Jones 
took over as the National Security Advisor, he indicated this 
is one of the things he would like to see so that how he is 
organized at the National Security Staff is also how the rest 
of the government is organized.
    So there is a great start on this. I am hoping that this 
provision will remain, that this report will come from the 
President explaining both the benefits of doing it plus any 
downsides of organizing the same.
    Dr. Adams. Could I address that question, Congressman, as 
well? I like to make a distinction here between how you look at 
the world in terms of policy and how you look at the world in 
terms of execution or implementation.
    At the level of policy and at the level of resourcing, 
which I will combine together, if you will, with policy, 
clearly the State Department is not adequately, how shall I 
say, structured and empowered internally to deal at the 
regional level the way it should, and that is a critical issue 
at State.
    My own of view of this, just to give you one example, is 
the budget capacity that is in the hands of EUR/ACE [the Office 
of the Coordinator of U.S. Assistance to Europe and Eurasia], 
which is the assistance office inside EUR, regional bureau at 
State, is very capacitated, very empowered, to be a regionally 
focused budget planning mechanism dealing with assistance to 
Eastern Europe and the former Soviet Union and has worked very 
closely with the Congress. It has done a remarkable job. In 
resourcing and planning terms, EUR is probably the best 
practice at the State Department.
    The falloff from that, even through NEA [the Bureau of Near 
Eastern Affairs] and into the African Bureau or South Asia or 
Southeast Asia or Pacific, is all considerable falloff. They 
are not empowered to think policy at the regional level. They 
are not empowered to think resources at the regional level, 
unlike EUR/ACE, which is the outstanding example at the State 
Department.
    So in policy and resourcing terms, it makes a lot of sense, 
even if you find the right way to draw the map, to empower 
those offices in the State Department with capacities both for 
policymaking and for resourcing budget decisions that they do 
not now have.
    It is different when you come to implementation. I am much 
less concerned about whether there is a country focus or a 
regional focus when it comes to moving forces, applying them in 
the field, having diplomats and chiefs of mission responsible 
in the implementation side on security assistance programs and 
economic assistance programs. I think all of that, provided you 
sufficiently empower the chief of mission authority at the 
country level on the implementation side, works reasonably well 
and can work reasonably well. But the policy/budgetary/
resourcing side at State Department needs to be more greatly 
empowered and reinforced than it has been. None of them but 
EUR/ACE have a budget office. None of them are looked to in the 
policy sense.
    The other caveat I would put on it is to be very careful in 
the Defense Department-side model as well. It is not so clear 
in policy terms that DOD policy is any more authoritative in 
policy terms at the regional level than the regional bureaus at 
State. We have a slight apples-and-oranges issue here, because 
the DOD offices that look like they are active and good 
implementers and policymakers are actually the COCOMs 
[combatant commands], and COCOMs are not policymakers. They 
behave like they are sometimes, but they are not, in fact, 
policymakers. They are policy implementers.
    So a close look I think needs to be taken at the COCOM 
structure as well to make sure that they, as it were, stay in 
their lane while policy and resource are on the civilian side 
and equally empowered in both institutions.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Dr. Snyder. Mrs. Davis for five minutes.
    Mrs. Davis. Thank you.
    Dr. Thompson, perhaps you can enlighten us a little bit. 
You studied the Intelligence Community and human capital 
reforms over the last five years. So what did we specifically 
learn from that that can be applied here and I guess really 
that which cannot? I mean, looking at the obstacles. And in the 
remaining time, probably there won't be much, one of the 
concerns I have, and I am probably not going to get back to ask 
this question, is how do we really translate this for the 
American people?
    We are struggling right now, we know that, in both Iraq and 
Afghanistan, but particularly Afghanistan, in terms of trying 
to establish and talk through the long-term efforts that are 
necessary for progress. We are talking about human capital and 
capacity building and all those kinds of things.
    So how is it that we are able to talk through some of these 
efforts in a way that makes sense, and perhaps people might 
even want to support and not be frightened by in terms of a 
long-term effort itself? Dr. Thompson?
    Dr. Thompson. Well, our interest was primarily in the human 
capital area, which is somewhat more narrow than some of these 
other topics that have been discussed here. But some of the 
same issues are the same.
    For example, Mr. Locher mentioned the issue of the 
authority of the DNI, which has figured centrally in the whole 
effort by the Intelligence Community to deal with these human 
capital reforms. And I mentioned the example earlier of the 
issue of waivers, the joint duty certification, which is the 
agencies collectively agree to a program whereby waivers could 
only be granted by the DNI and the Under Secretary of Defense 
for Intelligence.
    However, that is simply in the form of an agreement, and 
legally any agency head could, on his or her own, simply decide 
to promote somebody to a senior position without joint duty 
certification, which would kind of abrogate the treaty, and, to 
a substantial extent, the program itself.
    So I think the issue that Dr. Locher mentioned of providing 
the DNI with some greater degree of authority over the agencies 
would help. It doesn't have to be dramatic, but even an 
incremental change in authority would substantially, how shall 
we say it, put some teeth in the program that aren't there 
right now.
    It is remarkable--the program has achieved remarkable 
success, given the lack of authority on the part of the DNI, 
simply by virtue of the collaborative nature of the process 
they have gone through. But I would describe the program as 
somewhat at risk by virtue of this kind of lack of ability to 
kind of weigh in in certain circumstances.
    Plus the other thing, it has been highly contingent on 
personalities, which is that the people that went to this 
process all kind of bought in, but since then there has been a 
lot of turnover at the agency head, at the DNI level, at the 
chief human capital officer level, which has also kind of 
destroyed some of the collective or collaborativeness that has 
developed over time.
    So I would describe the program as vulnerable and somewhat 
at risk in that regard.
    With regard to the broader question of how to communicate 
this to the American people, it is not an item that I have 
given a lot of thought to, so I would have to contemplate that 
more.
    Mrs. Davis. Thank you. Anybody else want to tackle that?
    Dr. Adams. Let me take a crack at the communicating it to 
the American people, but I am afraid it is going to underline 
very much what Dr. Thompson had to say.
    I look at this particularly with respect to our investment 
in civilian capacity, as you gathered from my original 
testimony and my comments. And while it is staggeringly easy to 
communicate to the American people how much time and resources 
and people and investment we should put in on the military side 
of our national security structure, communicating successfully 
about the time, level of effort, people, and resources that 
need to be put on the civilian side has proven enormously 
difficult.
    Really I think it is a question of helping people 
understand that the civilian long-term investment has as much, 
if not more, payoff than the military investment that we are 
making, because especially to pursue some of the reforms that 
many of us have recommended, the investments that are being 
made are in the capacity to strengthen governance in various 
areas of the world that are of strategic concern to us.
    That isn't going to happen via an AFRICOM or COCOM type of 
arrangement. It is going to happen, and here a lot of the 
problem is human resources, it is going to happen if we 
recruit, train, cross-assign the way Mr. Locher is talking 
about, incentivize, promote our civilian personnel, so they 
are, in fact, empowered to do programmatic work and to focus on 
this long-term governance issue.
    We really have to focus the institutions. Getting the 
American people to understand that that long-term investment is 
in our security interests is the challenge that every Secretary 
of State has had since the year ``zot'' in trying to justify 
their budget request. That is the hard bridge to get over to 
the American people. It is even a hard bridge to get over to 
the Congress. Why should we put money here, when it is very 
hard to see the near-term payoff?
    Mrs. Davis. We work a little on short term.
    I was going to ask, Mr. Pendleton, in your looking at the 
right people and right jobs, would you agree? That is a big 
problem, partly because it is more long-term rather than short-
term.
    Mr. Pendleton. When we distilled all these reports, you 
know, you put them in a thing and shake them and see what comes 
out, it usually comes out to people in the long run.
    I would like to just comment a bit and tell a little bit 
more about the story of AFRICOM. I think it is telling.
    Originally they hoped they would have a lot of 
participation from State and AID, and it ended up being a 
couple dozen, which is similar to what the other COCOMs have, 
because DOD just absolutely dwarfs the other agencies. AFRICOM 
is a year-and-a-half old. There are 4,300 people working for 
them in Germany and Italy and down in Djibouti. I don't know 
how many people State has in Africa, but that is a lot of folks 
doing planning and thinking. So one of the things the national 
security budget would do, for example, is bring that out in 
pretty sharp relief. If you put DHS and State together, they 
are about one-tenth the size of DOD, and that in itself is 
telling.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Platts, last but not least.
    Mr. Platts. Thank you, Mr. Chairman. Just adding on to 
Congresswoman Davis about people, you know, when I have 
interacted out in Afghanistan and Iraq and examples of the 
country teams with the ambassadors and being able to come into 
any country and in a pretty good timeframe get a very good 
sense of what is going on from that country team, it is very 
effective, I guess. And then with PRTs, I have seen the same, 
especially in Afghanistan in some of the early years in my 
visits there.
    But I think in all those instances, it was people and their 
ability, kind of at the operations level just to say hey, we 
have got a job to do, let's find a way to get it done, and they 
make it work. When we get to the strategic level it gets more 
and more tough to have that success.
    With the people issue being one of the questions, and this 
might be Mr. Pendleton and Dr. Thompson, it is my understanding 
DNI is trying to promote interagency knowledge and cooperation, 
and with this program, Civilian Joint Duty Program, how you see 
that moving forward and I guess the effectiveness of it, and is 
it something we should look to as a model elsewhere to try to 
implement?
    Dr. Thompson. The answer is yes, but a cautious yes, which 
is the real crunch will come this October 1st when, according 
to the program that they have agreed to, one cannot be promoted 
to a senior level within the Intelligence Community without 
joint duty certification. So if everybody adheres to that 
agreement that they thus far have, then I think you can 
describe the program as a success. But that is really going to 
be crunch time within the Intelligence Community.
    Mr. Platts. Where they actually back that up.
    Dr. Thompson. Right. But to date, from everybody we have 
talked to, I think the program is considered a substantial 
success. All the agencies seem to have bought in. There is 
active participation by the officers themselves. There is joint 
leadership training programs just gearing up. So as of now, I 
would describe it as a success.
    Mr. Pendleton. Nothing to add.
    Dr. Adams. Just one thought on that, Congressman. I would 
say that probably one of the most revolutionary consequences of 
Goldwater-Nichols for the Department of Defense has been 
checking the joint box. That in order to move ahead, you have 
to have done that.
    I think over time, I don't know whether Jim would agree 
with it, but I imagine he would, it has had revolutionary 
impact on the way across services the senior officers now 
respond to their responsibilities.
    What could very easily be done in the Department of State 
is to make a similar requirement for a foreign service officer 
in the Department of State, that it is a requirement to have 
done interagency duty as part of your promotional package. It 
does not now exist, and it is my understanding of the Foreign 
Service Act of 1980 that it is permissive, that the Department 
itself could do that without the requirement for any 
congressional action. Over time, I think it would have a 
revolutionary impact similarly in the foreign service 
structure.
    Mr. Locher. I think the joint officer provisions of 
Goldwater-Nichols have been a huge success. They have created 
the right incentives. They have built the joint structure. You 
can go out to a combatant command where you have people in five 
different uniforms, and they are focused on what is the 
national mission. We are lacking that in the interagency.
    This committee last year took the initiative to require a 
study of an interagency personnel system, a career development 
and management, and that contract on that is going to be led by 
the Department of Defense. The Project today submitted a 
proposal on that, so we are hoping to do that. But that would 
be a huge step.
    In my testimony I recommended that this would be a near 
term step that the Congress could take. It could have the same 
dramatic changes by creating a different set of incentives for 
people in the interagency space.
    Mr. Platts. As one who has the privilege of representing 
the Army War College and is up there a lot, and as we have had 
tremendous hearings and the Chairman and Ranking Member's great 
leadership on professional military education and that 
jointness aspect of it, I certainly see when I am at the war 
college, when it is not just Army officers, but Navy, Air 
Force, Marine, civilian, Department of State, and then role-
playing for them in some of their strategic exercises, how that 
joint approach, you know, is so important and ultimately 
critical when they get out into the implementation of that 
strategic leadership that they are developing.
    Dr. Adams. I just did a presentation for one of the elite 
units at Carlisle on the subject, and, of course, it is a 
purposely impressive bunch of people. I have said many times 
the State Department needs to look at this element of their 
human resource development seriously.
    The Foreign Service Institute [FSI] does a lot of great 
work, but it does it at the entry level. It is insufficiently 
interagency. They don't follow through at mid-career. They 
really ought to be focusing right through a career and right 
through an interagency approach to that career at FSI in the 
training and education. State doesn't do it anywhere as well as 
the Defense Department or the services do it.
    Mr. Platts. Thank you. I yield back, Mr. Chairman.
    Dr. Snyder. Thank you.
    Mr. Locher, I had one quick question for you. In your 
statement today, you say that there is no single sweeping 
package that will be adopted and somehow we do reform once and 
forever.
    My recollection is when you came out with your 800-page 
report a couple of years ago, that, in fact, you all did 
advocate that there be very sweeping reform, I don't think you 
said one sweeping package, but you did say you pretty much need 
to take the whole package or don't do it.
    Has this been kind of an evolution of your thinking in this 
whole issue of reform with this national security system?
    Mr. Locher. Well, Mr. Chairman, maybe we did not 
communicate our intention well enough. When we did ``Forging a 
New Shield,'' we were looking to study the entire system. Even 
at that time we knew it would be a 10-year undertaking.
    We had gotten smarter on the ideas of implementation over 
the past year as we have worked with 10 or 12 agencies, and we 
have gotten a sense of how gradual the changes will have to be. 
And that is why I proposed this idea of a roadmap that gave us 
a sense of the sequencing of actions.
    Now, we do see that at some point in time, the Congress 
will need to pass a new National Security Act. We have started 
by trying to identify to the administration what can be done 
under existing authority, and a tremendous amount can be done 
under existing authority. But at some point in time, we are 
going to identify authority that the President does not 
currently have to operate in the new ways that the challenges 
of today and tomorrow will demand.
    So, in my testimony, I also talk about this roadmap which 
showed the path to legislation. But our 800-page report did not 
suggest that all of that would occur at one time. We understood 
that maybe we were not successful in communicating it.
    Dr. Snyder. Mr. Wittman, any further questions?
    Mrs. Davis, anything further?
    Mr. Platts, anything further?
    Thank you all for being here. I don't think we have solved 
the problem today, but I think the job this subcommittee has 
played in the last two or three years is to keep reminding us 
all that there is a problem out there that needs to be 
scratched at, and your all's work today and in the past and the 
future is part of that discussion. Thank you all.
    We are adjourned.
    [Whereupon, at 2:30 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                              June 9, 2010

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              June 9, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 57702.001
    
    [GRAPHIC] [TIFF OMITTED] 57702.002
    
    [GRAPHIC] [TIFF OMITTED] 57702.003
    
    [GRAPHIC] [TIFF OMITTED] 57702.004
    
    [GRAPHIC] [TIFF OMITTED] 57702.005
    
    [GRAPHIC] [TIFF OMITTED] 57702.006
    
    [GRAPHIC] [TIFF OMITTED] 57702.007
    
    [GRAPHIC] [TIFF OMITTED] 57702.008
    
    [GRAPHIC] [TIFF OMITTED] 57702.009
    
    [GRAPHIC] [TIFF OMITTED] 57702.010
    
    [GRAPHIC] [TIFF OMITTED] 57702.011
    
    [GRAPHIC] [TIFF OMITTED] 57702.012
    
    [GRAPHIC] [TIFF OMITTED] 57702.013
    
    [GRAPHIC] [TIFF OMITTED] 57702.014
    
    [GRAPHIC] [TIFF OMITTED] 57702.015
    
    [GRAPHIC] [TIFF OMITTED] 57702.016
    
    [GRAPHIC] [TIFF OMITTED] 57702.017
    
    [GRAPHIC] [TIFF OMITTED] 57702.018
    
    [GRAPHIC] [TIFF OMITTED] 57702.019
    
    [GRAPHIC] [TIFF OMITTED] 57702.020
    
    [GRAPHIC] [TIFF OMITTED] 57702.021
    
    [GRAPHIC] [TIFF OMITTED] 57702.022
    
    [GRAPHIC] [TIFF OMITTED] 57702.023
    
    [GRAPHIC] [TIFF OMITTED] 57702.024
    
    [GRAPHIC] [TIFF OMITTED] 57702.025
    
    [GRAPHIC] [TIFF OMITTED] 57702.026
    
    [GRAPHIC] [TIFF OMITTED] 57702.027
    
    [GRAPHIC] [TIFF OMITTED] 57702.028
    
    [GRAPHIC] [TIFF OMITTED] 57702.029
    
    [GRAPHIC] [TIFF OMITTED] 57702.030
    
    [GRAPHIC] [TIFF OMITTED] 57702.031
    
    [GRAPHIC] [TIFF OMITTED] 57702.032
    
    [GRAPHIC] [TIFF OMITTED] 57702.033
    
    [GRAPHIC] [TIFF OMITTED] 57702.034
    
    [GRAPHIC] [TIFF OMITTED] 57702.035
    
    [GRAPHIC] [TIFF OMITTED] 57702.036
    
    [GRAPHIC] [TIFF OMITTED] 57702.037
    
    [GRAPHIC] [TIFF OMITTED] 57702.038
    
    [GRAPHIC] [TIFF OMITTED] 57702.039
    
    [GRAPHIC] [TIFF OMITTED] 57702.040
    
    [GRAPHIC] [TIFF OMITTED] 57702.041
    
    [GRAPHIC] [TIFF OMITTED] 57702.042
    
    [GRAPHIC] [TIFF OMITTED] 57702.043
    
    [GRAPHIC] [TIFF OMITTED] 57702.044
    
    [GRAPHIC] [TIFF OMITTED] 57702.045
    
    [GRAPHIC] [TIFF OMITTED] 57702.046
    
    [GRAPHIC] [TIFF OMITTED] 57702.047
    
    [GRAPHIC] [TIFF OMITTED] 57702.048
    
    [GRAPHIC] [TIFF OMITTED] 57702.049
    
    [GRAPHIC] [TIFF OMITTED] 57702.050
    
    [GRAPHIC] [TIFF OMITTED] 57702.051
    
    [GRAPHIC] [TIFF OMITTED] 57702.052
    
    [GRAPHIC] [TIFF OMITTED] 57702.053
    
    [GRAPHIC] [TIFF OMITTED] 57702.054
    
    [GRAPHIC] [TIFF OMITTED] 57702.055
    
    [GRAPHIC] [TIFF OMITTED] 57702.056
    
    [GRAPHIC] [TIFF OMITTED] 57702.057
    
                                  <all>

</pre></body></html>
